No. 19-1357

eee ee —————

IN THE
Supreme Court of the United States

ROBERT A. PEREZ,
Petitioner,
Vv.

STATE OF COLORADO,
Respondent.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on July 13, 2020, as required by
Supreme Court Rule 29.5, [have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceeding as follows:

Kendall Kelly Alexis Turner L. Andrew Cooper

O'Melveny & Myers Office of the Colorado Attorney General
1625 I St. NW, 1300 Broadway St.

Washington, DC 20006 Denver, CO 80203
kendallturner@omm.com andrew.cooper@coag.gov

(703) 606-1934 (720) 508-6465

Counsel of Record for Petitioner Counsel of Record for Respondent
Robert A. Perez State of Colorado

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 13, 2020.

fp rm J vad)
Brianne orod.

Counsel for Amicus Curiae
